<html>
<title> - CYBERSECURITY: ENSURING THE INTEGRITY OF THE BALLOT BOX</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


        CYBERSECURITY: ENSURING THE INTEGRITY OF THE BALLOT BOX

=======================================================================

                                 HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                         INFORMATION TECHNOLOGY

                                 OF THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 28, 2016

                               __________

                           Serial No. 114-165

                               __________

Printed for the use of the Committee on Oversight and Government Reform


[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]



         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform
                      
                      
                               __________
                                                            

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
26-124 PDF                  WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d7b0a7b897b4a2a4a3bfb2bba7f9b4b8baf9">[email&#160;protected]</a>                       
                      
               
               COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                     JASON CHAFFETZ, Utah, Chairman
JOHN L. MICA, Florida                ELIJAH E. CUMMINGS, Maryland, 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JOHN J. DUNCAN, Jr., Tennessee       CAROLYN B. MALONEY, New York
JIM JORDAN, Ohio                     ELEANOR HOLMES NORTON, District of 
TIM WALBERG, Michigan                    Columbia
JUSTIN AMASH, Michigan               WM. LACY CLAY, Missouri
PAUL A. GOSAR, Arizona               STEPHEN F. LYNCH, Massachusetts
SCOTT DesJARLAIS, Tennessee          JIM COOPER, Tennessee
TREY GOWDY, South Carolina           GERALD E. CONNOLLY, Virginia
BLAKE FARENTHOLD, Texas              TAMMY DUCKWORTH, Illinois
CYNTHIA M. LUMMIS, Wyoming           ROBIN L. KELLY, Illinois
THOMAS MASSIE, Kentucky              BRENDA L. LAWRENCE, Michigan
MARK MEADOWS, North Carolina         TED LIEU, California
RON DeSANTIS, Florida                BONNIE WATSON COLEMAN, New Jersey
MICK, MULVANEY, South Carolina       STACEY E. PLASKETT, Virgin Islands
KEN BUCK, Colorado                   MARK DeSAULNIER, California
MARK WALKER, North Carolina          BRENDAN F. BOYLE, Pennsylvania
ROD BLUM, Iowa                       PETER WELCH, Vermont
JODY B. HICE, Georgia                MICHELLE LUJAN GRISHAM, New Mexico
STEVE RUSSELL, Oklahoma
EARL L. ``BUDDY'' CARTER, Georgia
GLENN GROTHMAN, Wisconsin
WILL HURD, Texas
GARY J. PALMER, Alabama

                   Jennifer Hemingway, Staff Director
     Troy Stock, Information Technology Subcommittee Staff Director
                          William Marx, Clerk
                 David Rapallo, Minority Staff Director
                                 ------                                

                 Subcommittee on Information Technology

                       WILL HURD, Texas, Chairman
BLAKE FARENTHOLD, Texas, Vice Chair  ROBIN L. KELLY, Illinois, Ranking 
MARK WALKER, North Carolina              Minority Member
ROD BLUM, Iowa                       GERALD E. CONNOLLY, Virginia
PAUL A. GOSAR, Arizona               TAMMY DUCKWORTH, Illinois
                                     TED LIEU, California
                           
                           C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on September 28, 2016...............................     1

                               WITNESSES

Mr. Andy Ozment, Assistant Secretary for Cybersecurity and 
  Communications, U.S. Department of Homeland Security
    Oral Statement...............................................     5
    Written Statement............................................     8
Mr. Thomas Hicks, Commissioner, Chairman, U.S. Election 
  Assistance Commission
    Oral Statement...............................................    12
    Written Statement............................................    14
The Hon. Brian P. Kemp, Secretary of State, State of Georgia
    Oral Statement...............................................    21
    Written Statement............................................    23
Mr. Andrew W. Appel, Eugene Higgins Professor of Computer 
  Science, Princeton University
    Oral Statement...............................................    27
    Written Statement............................................    29
Mr. Lawrence Norden, Deputy Director, Democracy Program, Brennan 
  Center for Justice, New York University School of Law
    Oral Statement...............................................    38
    Written Statement............................................    40

                                APPENDIX

Letter for the Record regarding federal voter registration 
  submitted by Ranking Member Cummings...........................    84
Article for the Record titled, ``States Ask Feds for 
  Cybersecurity Scans Following Election Hacking Threats,'' 
  submitted by Mr. Lieu..........................................    88
Checklist for Securing Voter Registration Data, submitted by Mr. 
  Hurd...........................................................    91
Letter for the Record regarding possible Trump connections to 
  cyber attacks, submitted by Ranking Member Cummings............    93
Open letter from the National Association of Secretaries of 
  State, submitted by Mr. Hurd...................................    99
Statement for the Record of the Electronic Privacy Information 
  Center, submitted by Mr. Hurd..................................   102

 
        CYBERSECURITY: ENSURING THE INTEGRITY OF THE BALLOT BOX

                              ----------                              


                     Wednesday, September 28, 2016

                  House of Representatives,
            Subcommittee on Information Technology,
              Committee on Oversight and Government Reform,
                                                   Washington, D.C.
    The subcommittee met, pursuant to call, at 2:03 p.m., in 
Room 2154, Rayburn House Office Building, Hon. Will Hurd 
[chairman of the subcommittee] presiding.
    Present: Representatives Hurd, Blum, Gosar, Cummings, 
Kelly, Connolly, and Lieu.
    Also Present: Representatives Carter and Hice.
    Mr. Hurd. The Subcommittee on Information Technology will 
come to order and, without objection, the chair is authorized 
to declare a recess at any time. I'd like to inform everybody, 
we will probably be interrupted by votes sometime between 2:30 
and 3:00. So we'll get through as much of this hearing as we 
can and then likely reconvene after that vote series, which I 
think is a short series.
    Thank you all for being here and good afternoon. We're here 
to talk about voting. Voting is the cornerstone of American 
democracy and a fundamental right of all Americans. Our 
existence as a democratic republic is only made possible and 
legitimate through free and fair elections. Each American's 
voice should be heard, but to ensure that, we must protect the 
ballot box. Like everything else in the digital age, however, 
voting can be vulnerable to hacking. There are about 10,000 
election jurisdictions nationwide that administer elections, 
and even within States, counties use different systems and 
different technologies to conduct elections.
    While no longer on the table for this election cycle, State 
and local election officials, including Secretary Kemp, who is 
here today, have expressed concern that classifying the 
election system as critical infrastructure would effectively be 
a Federal takeover of what has always been a local process. The 
purpose of this hearing is to examine the threats posed by the 
entities seeking to disrupt, undermine, or in any way alter the 
results of this election. But I also hope to initiate and 
foster discussion about what designating the election system as 
critical infrastructure would entail.
    I thank the witnesses for being here today and for their 
efforts as fellow citizens to ensure that November's elections 
are free and fair.
    I would like to now recognize the ranking member of the 
full committee, Mr. Cummings, for opening remarks.
    Mr. Cummings. Thank you very much, Mr. Chairman, and I 
thank you for your courtesy. And I thank you and Ms. Kelly for 
this hearing.
    I want to thank all of the witnesses that are here today.
    The focus today on the risk of election integrity posed by 
cyber threats is a very important one, but that is only a 
fraction of the risk to our elections. Efforts to hinder 
eligible voters' access to the ballot box also pose an urgent 
threat to our elections, to voter rights, and to our very 
democracy.
    In January, Election Assistance Commission Executive 
DirectorBrian Newby, who I see sitting in the audience today, 
wrote to Alabama, Georgia and Kansas, giving the appearance 
that he had the unilateral authority to allow these States to 
change the Federal voter registration form to require proof of 
citizenship. Mr. Newby's invalid act led to the 
disenfranchisement of at least, Mr. Chairman, tens of thousands 
of Kansas voters alone and who knows how many more in other 
States.
    Chairman Hicks, as the vice chairman at the time, you 
stated that Mr. Newby acted unilaterally and that the 
Commission has, quote, ``affirmed that agency staff does not 
have the authority to make policy decisions,'' end of quote. I 
simply could not agree more. This is why I have been 
investigating this matter with Ranking Member Robert Brady of 
the Committee on House Administration, and Assistant Democratic 
Leader Jim Clyburn. Thankfully, a Federal Court has issued an 
injunction halting and reversing Mr. Newby's invalid action. 
However, that litigation is ongoing, and I worry about the 
voters who have already been turned away, perhaps never to be 
able to vote in this election. Chairman Hicks, Mr. Newby, Mr. 
Tatum, we are sending you another letter today that outlines 
our findings thus far.
    I ask unanimous consent that the letter be entered into the 
record, Mr. Chairman.
    Mr. Hurd. Without objection, so ordered.
    Mr. Cummings. Thank you very much.
    We learned that Mr. Newby conducted no written analysis 
regarding the impact of his decision on the ability of eligible 
voters to register to vote. He also conducted no cost-benefit 
analysis to compare the potential for voter fraud with the 
potential for eligible voter disenfranchisement. He also 
claimed that he had been unaware until recently that proof of 
citizenship laws could have a disproportionate impact on people 
of color. I would invite him to read the case of John Doe v. 
North Carolina. While a lengthy decision, it makes it clear 
that it is a major problem with regard to people of color not 
being able to vote.
    In light of these findings, we seek additional information, 
but we also requested that Mr. Newby rescind his unilateral and 
invalid decision. Mr. Newby, I find your action to be shameful, 
and I hope you will swiftly rescind it.
    But this is not the only threat to our right to vote. In 
2013, the Supreme Court in Shelby County v. Holder struck down 
a crucial part of the Voting Rights Act that required some 
States to seek preclearance from the Department of Justice 
before changing their election laws.
    Mr. Norden, your organization, the Brennan Center, has been 
tracking the voting restriction laws passed since Shelby. In 
fact, 14 States will have new voting restrictions in place this 
fall for the first time in a Presidential election, literally 
stopping American citizens from voting. These include photo ID 
requirements, which have been shown time and time again to 
unduly burden young voters, women, the elderly, people with 
disabilities, low-income voters, and the homeless. Passed 
almost exclusively by Republican legislatures, these laws have 
been proven to have racially discriminatory intent.
    I am almost finished, Mr. Chairman.
    In July, a Federal appeals court struck down the voter 
restrictions in North Carolina, finding that they, and I quote, 
listen to this, ``target African Americans with almost surgical 
precision'' and, quote, ``were enacted with racially 
discriminatory intent in violation of the Equal Protection 
Clause,'' end of quote.
    We can fix this harmful lapse in our democracy by updating 
the Voting Rights Act in bills with bipartisan support and have 
proposed that we do so immediately. However, Republicans in 
Congress refuse to bring any of these bills to the floor for a 
vote. It is truly shameful, and as a Nation, we are better than 
that. I urge my colleagues to move this crucial legislation. 
The integrity of our democracy is at stake.
    And, with that, Mr. Chairman, I thank you for your 
courtesy, and I yield back.
    Mr. Hurd. I thank the ranking member.
    And now I would like to recognize the gentlelady from 
Illinois and my friend, Ms. Kelly, the ranking member of the 
Subcommittee on Information Technology, for her opening 
remarks.
    Ms. Kelly. Thank you, Mr. Chairman.
    Last week, after receiving classified briefings on threats 
to the upcoming election, Senator Dianne Feinstein and 
Representative Adam Schiff accused Russia of, and I quote, 
``making a serious and concerted effort to influence the U.S. 
election.''
    Recently, Director of National Intelligence James Clapper 
also cited a long history of Russia's efforts to influence 
elections abroad. The Director said that Russia's apparent 
efforts to compromise U.S. elections, quote, ``shouldn't come 
as a big shock to people,'' but attempts to influence the 
outcome of our election are not just limited to foreign 
government.
    According to law enforcement and the FBI, cyber attacks in 
August against voter registration databases in my State of 
Illinois and Arizona were most likely criminally motivated, 
possibly targeting voters' personally identifiable information. 
To know that my own State suffered this attack is extremely 
troubling, not only because of the threat of identity theft, 
but because of what hackers do once they have access to those 
databases. For example, perhaps they could change a voter's 
listed party affiliation in a way that affects primary 
elections, or they perhaps modify voter addresses to invalidate 
registration. We must address these questions and do absolutely 
everything we can to defend against future attacks. In today's 
hearing, we will be addressing the crucial question: How secure 
is the electoral infrastructure from any cyber attacks, 
regardless of the source?
    According to security experts, a massive attack against the 
infrastructure as a whole is not the biggest cyber 
vulnerability in our election process. Rather, it is the 
individual voting machines that pose some of the greatest risk. 
According to a 2015 report from the Brennan Center for Justice, 
many voting machines were designed and engineered in the 1990s 
or early 2000s. These machines were designed before the 
Internet base of sort of advanced cyber risks that now are all 
too common in our current threat environment.
    For example, in 2015, Virginia's Board of Elections 
decertified a voting system used in 24 percent of precincts 
after finding that an external party could access the machine's 
wireless feature to, quote, ``record voting data or inject 
malicious data.''
    But beyond cyber attacks, these machines are also 
vulnerable to operational failures like crashes and glitches. 
As one security expert at Rice University put it, and I quote: 
``These machines, they barely work in a friendly environment.''
    As we examine this upcoming election and beyond, we must 
consider what sorts of investment we must make to our voting 
infrastructure. Today's hearing will provide us with an 
opportunity to learn just how vulnerable our elections might be 
to hackers and what our local, State, and Federal Government 
can do to protect our electoral processes.
    But I must also add that I hope that we have more hearings 
on the topic of the right to vote and the access of the ballot 
box. Far too many States across this country have enacted 
troubling voter suppression laws since the Supreme Court 
decision in Shelby County v. Holder, and I have been deeply 
disappointed at the lack of interest across the aisle in 
addressing this issue. We must repair the damage done to the 
Voting Rights Act with legislation, and that must be a top 
priority. To preserve the integrity of our ballot box, we must 
also protect citizens' access to it.
    Mr. Chairman, thank you again for holding this important 
hearing.
    Mr. Hurd. Thank you.
    And I will hold the record open for 5 legislative days for 
any members who would like to submit a written statement.
    And the chair notes the presence of our colleague 
Congressman Buddy Carter of Georgia. We appreciate your 
interest in this topic and welcome your participation today.
    I ask unanimous consent that Congressman Carter be allowed 
to fully participate in today's hearing.
    Without objection, so ordered.
    We will now recognize our panel of witnesses. I am pleased 
to welcome Dr. Andy Ozment, Assistant Secretary for 
Cybersecurity and Communications at the U.S. Department of 
Homeland Security; Commissioner Thomas Hicks, Chairman of the 
U.S. Election Assistance Commission; Dr. Andrew Appel, the 
Eugene Higgins Professor of Computer Science at Princeton 
University; and Mr. Lawrence Norden, deputy director of the 
Democracy Program at the Brennan Center for Justice at the New 
York University School of Law.
    I am now pleased to recognize my colleague, the gentleman 
from Georgia, Mr. Carter, to introduce our remaining 
distinguished witness.
    Mr. Carter. Well, thank you, Mr. Chairman.
    It is definitely an honor today to welcome the secretary of 
state from the State of Georgia, my friend Brian Kemp, who 
preceded me in Georgia's State Senate. And I served in the 
house while he served in the senate, and then I moved over to 
the senate to try to clean up the mess that he and Tom Price 
left. But, nevertheless, we got that done.
    Brian Kemp was elected the 27th secretary of state of 
Georgia in January of 2010. He has done an outstanding job in 
cutting wasteful spending and implementing zero-based 
budgeting. He currently serves as co-chair of the National 
Association of Secretaries of State Elections Committee and is 
a member of the DHS Election Infrastructure Cybersecurity 
Working Group. He is a native of Athens, Georgia--Go Dogs--and 
he and his lovely wife Marty have three beautiful daughters. 
And we are just glad to have him here and proud to have him 
representing us as our secretary of state in Georgia.
    Mr. Hurd. Thank you, Mr. Carter.
    Welcome to you all.
    And pursuant to committee rules, all witnesses will be 
sworn in before you testify. So please rise and raise your 
right hands.
    Do you solemnly swear or affirm that the testimony you are 
about to give will be the truth, the whole truth, and nothing 
but the truth? Thank you and please be seated.
    Let the record reflect the witnesses answered in the 
affirmative.
    In order to allow time for discussion, please limit your 
testimony to 5 minutes, and your entire written statement will 
be made part of the record.
    I would now like to recognize Dr. Ozment for his opening 
remarks.

                       WITNESS STATEMENTS

                    STATEMENT OF ANDY OZMENT

    Mr. Ozment. Thank you. Chairman Hurd, Ranking Member Kelly, 
Ranking Member Cummings, members of this committee, thank you 
for today's opportunity to discuss cybersecurity and our 
election infrastructure.
    At the core of our American values is the fundamental right 
of all citizens to make their voice heard by having their vote 
counted. Ensuring the integrity of our electoral process is of 
vital national interest and one of our highest priorities as 
citizens in a democratic society. Increasingly, some parts of 
the Nation's election infrastructure leverage information 
technology for efficiency and convenience.
    Like other systems, reliance on digital technologies could 
introduce new cybersecurity risks. However, the dispersed and 
diverse nature of our election infrastructure provides inherent 
resilience and presents real challenges to attempts at 
affecting the integrity of election results.
    Our election system is run by State and local governments 
in thousands of jurisdictions across the country. Importantly, 
State and local officials have already been working, 
individually and collectively, to reduce risks and ensure the 
integrity of their elections.
    Consistent with our longstanding work with State and local 
governments, we at DHS are partnering with election officials 
to share information about cybersecurity risks and to provide 
voluntary resources from the Department upon request. 
Addressing cybersecurity challenges such as these is not new 
for our Department. Our National Cybersecurity and 
Communications Integration Center, or NCCIC, provides support 
to State and local customers, such as election officials, as 
part of its daily operations.
    In August, Secretary Johnson hosted a phone call with 
election officials from across the country that included 
representatives from other Federal agencies to discuss the 
cybersecurity of election infrastructure. The Secretary offered 
assistance from DHS' NCCIC to assist State and local election 
officials in securing their systems. The NCCIC provides the 
same assistance on an ongoing basis to public and private 
sector partners upon request. The assistance is voluntary and 
does not entail regulation, binding directives, or any kind of 
Federal takeover. The DHS role is limited to support only.
    Through engagements with State and local officials, we are 
offering three types of assistance: best practices, information 
sharing, and incident response. In support of best practices, 
DHS has offered two different types of risk assessments to 
State and local government officials:
    First, cyber hygiene scans on Internet-facing systems 
provide State and local officials with recurring reports that 
identify any vulnerabilities and provide mitigation 
recommendations.
    Second, our cybersecurity experts can go on site to conduct 
risk and vulnerability assessments. These assessments are more 
thorough, and DHS provides the customer with a full report of 
vulnerabilities and recommended mitigations following the 
testing.
    DHS will continue to share relevant information on cyber 
incidents through multiple avenues. For example, DHS has 
published best practices for securing voter registration 
databases and addressing potential threats to election systems. 
More broadly, the NCCIC works with the Multi-State Information 
Sharing and Analysis Center, or MS-ISAC. The MS-ISAC provides 
threat and vulnerability information to State and local 
government officials. It was created by DHS to support State, 
local, tribal, and territorial governments and is partially 
grant-funded by DHS. The MS-ISAC has a representative colocated 
with the NCCIC to enable regular collaboration and access to 
information and services for State chief information officers.
    During this election season, DHS' NCCIC is prepared to 
provide incident response assistance to help State and local 
officials identify and remediate any possible cyber incidents. 
In the case of an attempted compromise affecting election 
infrastructure, the NCCIC will share technical information with 
other States, to assist their ability to defend their own 
systems from similar malicious activity.
    Moving forward, we must recognize that the nature of risk 
facing our electoral infrastructure will continue to evolve. 
DHS has, therefore, established an experts group comprised of 
academics, independent researchers, and Federal partners. This 
group will continually evaluate emerging risks and ensure that 
State and local officials have the information and assistance 
needed to secure the infrastructure in their jurisdiction.
    Before closing, I want to reiterate that we have confidence 
in the overall integrity of our electoral system, because our 
voting infrastructure is fundamentally resilient. It is 
diverse, subject to local control, and has many checks and 
balances built in. As the risk environment evolves, the 
Department will continue to support State and local partners by 
providing information, assistance with best practices, and 
tools upon request.
    Thank you for the opportunity to testify, and I look 
forward to any questions.
    [Prepared statement of Mr. Ozment follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Hurd. Thank you, Dr. Ozment.
    Mr. Hicks, you are now recognized for 5 minutes for your 
opening remarks.

                   STATEMENT OF THOMAS HICKS

    Mr. Hicks. Good afternoon, Mr. Chairman, and members of the 
Subcommittee on Information Technology and Committee on 
Oversight and Government Reform.
    My name is Thomas Hicks, and I am Chairman of the United 
States Election Assistance Commission, or EAC. The EAC is a 
four-member bipartisan commission. The EAC's mission is to 
guide, assist, and direct the effective administration of 
Federal elections, through funding, innovation, guidance, and 
information. The EAC was charged with three duties: one, 
develop and administer a voting machine testing and 
certification program; two, develop and administer a national 
clearinghouse for election administration information; and 
three, distribute HAVA grants to States to allow them to 
purchase new, more secure voting machines and systems.
    Since our inception, the EAC has carried its charge. Forty-
seven of 50 States use EAC's voluntary voting machine testing 
and certification program in part or in whole. We produce the 
most comprehensive election administration survey in the 
country, and we produce volumes of materials designed to help 
election administrators run their elections more effectively 
and efficiently. Among other things, these materials help the 
States understand and react to the current cybersecurity 
threats against their voting systems. State and local election 
officials run the elections, and we support them.
    I am here today to testify on three items: First and 
foremost, our elections are secure. The American election 
administration system inherently protects our elections and its 
vast size and complexity. Voters should have confidence that 
their voices will be counted accurately when they cast them. 
Second, there may be headlines related to cyber attacks and 
data breaches, but these headlines are not representative of 
our voting machines. Unlike the systems in the headlines, our 
voting machines are not connected to the Internet. Third, the 
EAC works every day to help ensure the security of our 
elections.
    First, the security that is inherent in our election system 
because our system is vast and complex. Since States and 
territories run elections, the American election administration 
system is actually compiled of more than 50 administrative 
systems. Each State has developed its own processes for 
conducting Federal, State and local elections. These States and 
territories are made up of thousands of election jurisdictions. 
Often, these jurisdictions operate autonomously but report to 
the States.
    What is important to identify in today's hearing is that 
there is no single or uniform national election administration 
system that manages elections. This means that there is no 
national system that a hacker or bad actor can infiltrate to 
affect the American elections as a whole.
    The complexity of our American election assistance system 
both deters attacks and allows election officials to ensure the 
integrity of the election in the event of an attack. The 
complexity deters potential attackers from attempting to access 
American elections, because the number of resources that one 
would need to complete such an attack may be prohibitively 
high. There are thousands of individuals operating, often 
autonomously. A bad actor would have to figure out how to 
successfully access a significant portion of these parts. 
Additionally and perhaps most importantly, voting machines are 
not connected to the Internet. So a bad actor would have to 
access these systems in person. The amount of resources 
required to carry out this attack would be immense.
    That is not to say that no one will ever try to access 
American elections. Recent events in Arizona and Illinois 
remind us that this is not true. The breaches in Arizona and 
Illinois exemplify another strength in our election system. 
Because the State administers its own elections, the breaches 
in these States did not compromise the system in other States. 
Instead of causing a national crisis, the breaches notified 
election officials across the country that they should be on 
high alert.
    With this new information, election officials across the 
country started administrating system security checks and 
doublechecked in their places and procedures. The EAC took 
action as well. Upon learning of these attacks, we sent a 
security system, testing guides, and other voting machine 
security information to election officials. At the EAC, we have 
been focused on election security since our inception as an 
agency, and we reacted quickly, and we realize that the current 
events demand our help. Both our voluntary voting system 
guidelines and our best practices focus is on ensuring the 
security of our elections.
    This year, we have also created a new initiative to help 
election administrators better administer their elections this 
fall. It's called Be Ready 16. Through Be Ready 16, we 
distributed voting training material, current information, and 
guides to election officials throughout the country. We also 
integrated topics, such as election security, into our public 
meetings and roundtables. We are proud of our Be Ready 16, but 
it is just one example of many ways we support election 
officials.
    In conclusion, I am here to communicate one message. That 
message is that our elections are secure. They are secure 
because the American election administration system inherently 
protects them. There are threats to our elections, but the 
voters have confidence that their votes will be counted 
accurately and recorded accurately when they cast them.
    I thank you for your time, Mr. Chairman, Ranking Member, 
and other members of this committee, and I look forward to your 
questions.
    [Prepared statement of Mr. Hicks follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Hurd. Thank you, Mr. Hicks.
    Secretary Kemp, you are now recognized for 5 minutes for 
your opening remarks.

                   STATEMENT OF BRIAN P. KEMP

    Mr. Kemp. Good afternoon. And I want to thank 
Representative Carter for that fine introduction, and thank the 
committee and Chairman Hurd for inviting me to discuss election 
security, the safeguards on our elections, and then my 
perspective as the top elections official in Georgia, the 
eighth largest State in the Union.
    As Georgia's secretary of state, I currently serve as co-
chair of the National Association of Secretaries of State 
Elections Committee. And within the last 3 weeks, I have agreed 
to serve on the Department of Homeland Security's elections 
infrastructure cyber working group organized by Secretary Jeh 
Johnson.
    Recent events, including the hack of the DNC database as 
well as successful cyber attacks against voter registration 
databases in Arizona and Illinois, have rightfully caused great 
alarm among the public as well as elections officials. However, 
it is imperative that we as a Nation respond the correct way to 
these attacks. Administering elections is a great but unique 
responsibility. The foundation of our republic rests on the 
trust that Americans have in the way that we elect 
representatives in our government. If that trust is eroded, our 
enemies know that they will create fissures in the bedrock of 
American democracy. We cannot allow this to happen. The D.C. 
response to these attacks has been to take steps toward 
federalizing aspects of elections, election systems, and 
standardizing security measures. There is a better way to face 
these attacks and future potential threats than what has 
currently been proposed by DHS with designating election 
systems critical infrastructure.
    In discussing election security, it is important to 
understand the difference between the components of an 
election. The system is comprised of campaign systems, 
registration and reporting systems, as well as voting systems. 
Campaign systems are databases not held by the States, such as 
databases held by national parties. Attacks on these systems 
don't disrupt activities in the State's jurisdictions, although 
they can cause harm, as recently seen by the attack on the DNC.
    Registration and reporting systems are held by the States, 
but they do not impact the true canvass results in an election. 
These systems manage the voter registration rolls and report 
unofficial results on election night. Although these systems 
are more prone to attack than the voting system, because many 
are Web-based platforms, attacks on these systems cannot change 
the votes that are cast. These systems are also tested 
regularly, have redundancies, failsafes, and backups.
    Finally, voting systems are the actual equipment used on 
election day. They are nonnetwork pieces of hardware that do 
not connect to the Internet. They are tested by vendors, by 
States, and by the EAC. Even before they are deployed, they are 
tested again by local technicians to ensure their security and 
accuracy.
    In looking toward November, it is important for us to 
address the types of threats that may come against the Nation's 
elections. I view these threats in three different categories: 
First, there are threats that undermine the confidence in the 
outcome of the election. This has already started among 
conspiracy theorists, campaigns, and members of the media. 
Senator Feinstein was mentioned earlier about Russia's 
influence. This narrative will likely continue through 
canvassing and beyond. Although elections officials must be 
cognizant of these narratives and respond to them as needed, 
this threat cannot create actual harm to the system or the 
results of the election.
    Second, there are threats that disrupt elections. These 
threats could be cyber attacks on Web-based systems, but they 
more commonly occur with threats of physical violence, verbal 
altercations, or misinformation distributed at polling 
locations. In my view, this is far more likely to occur than a 
coordinated hacking of each individual voting unit in the 
United States. This type of threat is also not only more 
probable to occur but also would have a greater chilling effect 
on election participation.
    The third type of threat is altering the outcome of the 
election. This requires an attack on the voting system itself. 
However, the voting system is layered with combinations of 
physical and technical security to address these concerns. The 
voting system is the most secure system in the election space. 
It is not networked. It's not on the Internet. And it's tested 
many times in many different ways as well as having overlapping 
physical security features to defeat cyber attacks as well as 
physical attacks. This threat would require far too much 
coordination, planning, and ability to physically manipulate 
thousands of machines at thousands of locations across the 
United States. Although it is possible, it is not probable, and 
there is no evidence it has ever occurred in a U.S. election.
    As I stated moments ago, Secretary Johnson responded to 
this threat of cyber attack when he publicly began considering 
designating the election system critical infrastructure. This, 
as you can be made aware or you could suggest, caught many 
elections officials by surprise, and rightfully so. The 
suggestion from the agency, completely regarding--unfamiliar 
with the election space raised the level of public concern 
beyond what was necessary. This decision has been criticized by 
elections officials and cybersecurity experts alike and really 
addresses one of my main concerns and is why I am so glad to be 
here today to answer your questions as we proceed. Thank you.
    [Prepared statement of Mr. Kemp follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Hurd. Thank you, Secretary Kemp.
    Votes have been called, and what we'll do is we'll get to 
Dr. Appel's, get through your opening statement, and then we 
will adjourn for votes and then come back and finish with Mr. 
Norden and the questions.
    So, Dr. Appel, you are recognized for 5 minutes.

                  STATEMENT OF ANDREW W. APPEL

    Mr. Appel. My name is Andrew Appel. I am professor of 
computer science at Princeton University. In this testimony, I 
don't represent my employer. I am here to give my own 
professional opinions as a scientist but also as an American 
citizen who cares deeply about protecting our democracy.
    My research is in software verification, computer security, 
technology policy and election machinery. As I will explain, I 
strongly recommend that, at a minimum, the Congress seek to 
ensure the elimination of direct-recording electronic voting 
machines, sometimes called touchscreen machines, immediately 
after this November's election and that the Congress require 
that all elections be subject to sensible auditing after every 
election to ensure that systems are functioning properly and to 
prove to the American people that their votes are counted as 
cast.
    There are cybersecurity issues in all parts of our election 
system: before the election, voter registration databases; 
during the election, voting machines; after the election, vote-
tabulation/canvassing/precinct-aggregation computers. In my 
opening statement, I will focus on voting machines. The other 
topics are addressed in a recent report I have coauthored 
entitled ``10 Things Election Officials Can Do to Help Secure 
and Inspire Confidence in This Fall's Elections.''
    In the U.S., we use two kinds primarily of voting machines: 
optical scanners that count paper ballots and touchscreen 
voting machines, also called direct-recording electronic. Each 
voting machine is a computer running a computer program. 
Whether that computer counts the votes accurately or makes 
mistakes or cheats by shifting votes from one candidate to 
another depends on what software is installed in the computer.
    We all use computers, and we've all had occasion to install 
new software. Sometimes it's an app we purchase and install on 
purpose. Sometimes it's a software upgrade sent by the company 
that made our operating system. Installing new software in a 
voting machine is not really much different from installing new 
software in any other kind of computer. Installing new software 
is how you hack a voting machine to cheat.
    In 2009, in the courtroom of the Superior Court of New 
Jersey, I demonstrated how to hack a voting machine. I wrote a 
vote-stealing computer program that shifts votes from one 
candidate to another. Installing that vote-stealing program in 
a voting machine takes 7 minutes per machine with a 
screwdriver. I did this in a secure facility, and I am 
confident my program has not leaked out to affect real 
elections. But, really, the software I built was not rocket 
science. Any computer programmer could write the same code. 
Once it's installed, it could steal elections without detection 
for years to come. Voting machines are often delivered to 
polling places several days before the election, to elementary 
schools, churches, firehouses. In these locations, anyone could 
gain access to a voting machine for 10 minutes. Between 
elections, the machines are routinely opened up for maintenance 
by county employees or private contractors. Let's assume they 
have the utmost integrity, but still in the U.S. we try to run 
our elections so that we can trust the election results without 
relying on any one individual.
    Other computer scientists have demonstrated similar hacks 
on many models of machine. This is not just one glitch in one 
manufacturer's machine; it's the very nature of computers.
    So how can we trust our elections when it's so easy to make 
the computers cheat? Forty States already know the answer. Vote 
on optical scan paper ballots. The voter fills in the bubble 
next to the name of their preferred candidate, then takes this 
paper ballot to the scanner right there in the precinct and 
feeds it in. That opscan voting machine has a computer in it, 
and we can't 100 percent prevent that computer from being 
hacked, but that very paper ballot marked by the voter drops 
into a sealed ballot box under the opscan machine. Those 
ballots can be recounted by hand in a way we can trust. 
Unfortunately, there's still about 10 States that primarily use 
paperless touchscreen voting computers. There's no paper ballot 
to recount. After the voter touches the screen, we have to rely 
on the computer; that is, we have to rely on whatever program 
is installed in the computer that day to print out the true 
totals when the polls close.
    So what must we do? In the near term, we must not connect 
the voting machines to the Internet. The same goes for those 
computers used to prepare the electronic ballot definition 
files before each election that are used to program the voting 
machines; that is, we must not connect the voting machines, 
even indirectly, to the Internet. Many able and competent 
election administrators already follow this best practice. I 
hope that all 9,000 or 10,000 counties and States that run 
elections follow this practice and other security best 
practices, but it's hard to tell whether they do consistently.
    These and other best practices can help protect against 
hacking of voting machines by people in other countries through 
the Internet, but they can't protect us from mistakes, software 
bugs, miscalibration, insider hacking, or against local 
criminals with access to the machines before or after 
elections. So what we must do as soon as possible after 
November is to adopt nationwide what 40 States have already 
done, paper ballots marked by the voter, countable by computer, 
but recountable by hand.
    In 2000, we saw what a disastrously unreliable technology 
those punch-card ballots were. So, in 2002, the Congress 
outlawed punch-card ballots, and that was very appropriate. I 
strongly recommend that the Congress seek to ensure the 
elimination of paperless touchscreen voting machines 
immediately after this November's election.
    [Prepared statement of Mr. Appel follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Hurd. Thank you, Dr. Appel. The committee stands in 
recess until immediately following votes.
    [Recess.]
    Mr. Hurd. The Subcommittee on Information Technology will 
come to order.
    Thank you all for the indulgence. I think we have one more 
opening remark, and then we'll get to the question and answer.
    Mr. Norden, bring us back in. You're recognized for 5 
minutes for your opening statement.

                  STATEMENT OF LAWRENCE NORDEN

    Mr. Norden. Thank you, Chairman Hurd, Ranking Member Kelly, 
and members of the subcommittee, for inviting me to testify 
today. For those who don't know, the Brennan Center at NYU Law 
School is a think tank and public advocacy group, a nonprofit, 
that works on issues of democracy and justice. And I have led 
the Brennan Center's work on election technology and security 
for over a decade.
    There are two points I want to convey today. The first is 
that real threats to our election integrity needs to be treated 
with the utmost seriousness. Among other things, that means 
that we need to distinguish between genuine threats and 
sensationalistic rhetoric. Second, the biggest danger, I 
believe, to the integrity of our election this November are 
attempts to undermine public confidence in the election. 
Specifically, as we have heard from others, attempted attacks 
against voting machines are highly unlikely to have widespread 
impact on vote totals this November. However, attacks or 
malfunctions that could undermine public confidence are much 
easier.
    I want to echo what some of the other witnesses said today. 
It's important when we talk, when we have public discussions 
about election systems and security that we distinguish between 
the different kinds of systems that there are. Campaign email 
servers are obviously very different than voter registration 
databases, which are very different than voting machines.
    On the topic of voter registration databases, Mr. Ozment 
and Secretary Kemp I think did a very good job talking about 
the kinds of steps that are being taken to make them secure. 
The good news is, when it comes to the integrity of our 
elections, there are relatively straightforward steps to ensure 
that any attack or hack against voter registration databases 
should not prevent people from voting. Most importantly, 
regular backups of these systems should allow us to reconstruct 
lists, if--and I should emphasize this has not happened 
anywhere as far as I know--if data is changed on those 
registration databases. And as far as I know, every State does 
this.
    On the issue of voting machines, a lot of ground has 
already been covered about why they are different than 
registration databases; that voting machines should never be 
connected to the Internet, that we have a decentralized system 
with 10,000 election jurisdictions using different machines, 
having different rules. And I agree with all that. The one 
thing I would add is, that was not noted, is the vast majority 
of people this November will vote either on a paper ballot that 
is read by a scanner or will vote on a machine that has a paper 
trail that they can review, and by my estimates about 80 
percent of Americans will do so. And that can serve as an 
important deterrent and should provide voters with confidence 
that there is a check to ensure that their votes have been 
accurately recorded. These facts and others that are detailed 
in my testimony and that others have mentioned make it highly 
unlikely that there could be a successful widespread attack to 
change vote totals.
    Having said this, I want to talk about the problem of aging 
equipment in the United States. I do believe that if this is 
not addressed, it can do real damage to voter confidence and, 
therefore, the integrity of our elections. And this is 
particularly true now when there are discussions of Russian 
hacks and rigged elections so much in the public discourse.
    In 2015, I oversaw a yearlong study that looked at this. We 
found that 42 States are using voting machines that are over a 
decade old this November, and that's perilously close to the 
end of projected lifespans for these machines, particularly 
those designed and engineered in the 1990s. I want to be clear 
that that's a rather blunt tool to measure when systems need to 
be replaced. I'm not saying that every machine, when it reaches 
10 years old or 15 years old, is suddenly going to stop 
working.
    Before I came into this hearing today, I saw a 1965 Ford 
Mustang running, and it looked like it was running perfectly; 
and obviously the kind of maintenance and investment that is 
put into machinery can allow it to work much longer. And 
Georgia is a great example of this. They have a project with 
Kennesaw State where they really invest in their equipment, and 
they're using machines that most other jurisdictions have had 
to replace, because they put that investment into them.
    But the interviews that we conducted with election 
officials in all 50 States make it clear that there are real 
challenges and they're growing with aging equipment. Failures 
of systems during voting lead to long lines and lost votes. 
Outdated hardware and software means that election officials 
struggle to find replacement parts. We talked to a number of 
officials who have to go to Ebay to find critical parts, like 
dot matrix printer ribbons, decades-old storage devices, analog 
modems. And more than one official described their system as 
essentially jerry-rigged to hold it together. And, of course, 
these older systems that I'm talking about did not go through 
the kind of more rigorous Federal certification system that we 
have now for security, and as Dr. Appel noted, are 
disproportionately paperless.
    Replacing this equipment is a major issue. In 32 States, we 
spoke to election officials who said they wanted to replace 
their equipment before the next Presidential election of 2020. 
In 21 States, election officials told us they didn't know where 
they would get their money. More recently, we interviewed about 
250 local election officials, and about a clear majority said 
they either needed to or should replace their equipment before 
2020, and 80 percent of those said that they didn't know where 
they would get the money for that.
    So I will close on that point. Thank you.
    [Prepared statement of Mr. Norden follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Hurd. Thank you, Mr. Norden.
    And I'm going to recognize myself now for 5 minutes of 
questions. And my first question is actually for all five of 
you gentlemen, and we'll start with you, Mr. Norden, and go 
down the line. And first off, I appreciate you all's written 
testimony. I appreciate you all's oral testimony as well. We 
are in such an important time and, you know, there is decades' 
worth of experience sitting at this table looking at this 
important issue, and I think you give the American people some 
comfort.
    And so my first question, I think this is a yes or no 
question to all of you all. On 8 November, can a cyber attack 
change the outcome of our national elections? Mr. Norden.
    Mr. Norden. I'm confident that that will not be the case.
    Mr. Hurd. Dr. Appel?
    Mr. Appel. I think it's----
    Mr. Hurd. Secretary Kemp?
    Mr. Kemp. No.
    Mr. Hurd. Mr. Hicks?
    Mr. Hicks. No.
    Mr. Hurd. Dr. Ozment?
    Mr. Ozment. No.
    Mr. Hurd. Excellent.
    Dr. Appel, Mr. Appel, excuse me, when you did your research 
in hacking the equipment, that was done in a controlled 
environment. Is that correct?
    Mr. Appel. It was done inside the State Police 
headquarters.
    Mr. Hurd. Was it one machine or were you able to access 
multiple machines?
    Mr. Appel. We had two machines per study.
    Mr. Hurd. Were they connected or did you have to access 
them each individually?
    Mr. Appel. These machines don't connect to any network.
    Mr. Hurd. So none of the machines connect to each other. Is 
that correct?
    Mr. Appel. The kind of machine that I hacked that we use in 
New Jersey do not connect to any network.
    Mr. Hurd. And they did not connect to any network, so that 
means they're not facing the Internet as well?
    Mr. Appel. That's right. In particular, the kinds of 
machines that we use in New Jersey, and the same machines are 
used in Louisiana, I don't know of any practical way to hack 
them through any kind of network. The only way I know that they 
can be hacked is by someone with physical access to them.
    Mr. Hurd. So there's no practical way to hack these voting 
machines unless you have physical access. And then if you have 
physical access, you have to have physical access to each box 
because none of the boxes are actually connected, nor are they 
connected to the Internet?
    Mr. Appel. That's true for many kinds of touch screen 
voting machines, but not for all kinds that are in use today.
    Mr. Hurd. And, Secretary Kemp, I just want to clarify that. 
And I guess this question to you as your role as the vice 
chairman of the Association of Secretaries of State. There are 
no voting systems that connect to the Internet, correct?
    Mr. Kemp. Well, Commissioner Hicks might can back me up on 
this, but I know our systems are not. I wouldn't want to speak 
for every State in the country, but I would feel very confident 
in saying the vast majority, probably all are not connected to 
the Internet.
    Mr. Hurd. Mr. Hicks, do you have any opinions on that.
    Mr. Hicks. From what we've determined, no voting machines 
are connected to the Internet.
    Mr. Hurd. So let's take one municipality, one voting 
district. They probably have how many machines? Is there an 
average number, you know, 5 to 10, 5 to 25, in one voting 
location? Let's take a voting location.
    Mr. Kemp. Well, I think in Georgia, it would depend on the 
jurisdiction. Certainly, in a precinct in Fulton County you 
could have, you know, I would say, over 100 machines. In a 
smaller, rural county, you may have 5 to 10.
    Mr. Hurd. And so, Mr. Appel, in that scenario, an attacker 
would actually have to have access to all 100 in the one county 
in order to manipulate the records?
    Mr. Appel. In Georgia, that's not the case. The machines 
used in Georgia have been demonstrated to be hackable through a 
virus that's carried on ballot definition cartridges, very much 
like the Stuxnet virus was inserted into nuclear centrifuges in 
Iran.
    Mr. Hurd. But in that auditing system, in the auditing of 
these machines, we look at that. Is that correct?
    Mr. Appel. I'm sorry. Can you repeat the question?
    Mr. Hurd. So in those machines that have that vulnerability 
in the auditing process, isn't that scanned? Don't we scan for 
that?
    Mr. Appel. It's difficult to scan for that vulnerability in 
the sense of if you ask a machine to report what software is 
loaded in it, if it's fraudulent software, it will lie. So the 
AccuVote TS machines used in Georgia and in a few counties in 
other States are particularly vulnerable to this kind of virus 
that can be carried to the machines even if the criminal 
attacker doesn't touch the machines or is not even in the same 
State with the machines. The touch screen voting machines used 
in most other States, I don't know of any such way to hack them 
through a virus carried on cartridges.
    Mr. Hurd. Dr. Ozment, do you have any opinions on that? And 
when you provide best practices and information sharing to 
folks that request your assistance, is this the type of 
vulnerability that you all notify folks of?
    Mr. Ozment. You know, I think it's a good opportunity for 
me to elaborate on my answer. First, we have to always be 
vigilant. In the field of cybersecurity, we can never relax. We 
have no indication that adversaries are planning cyber 
operations against U.S. election infrastructure that would 
change the outcome of the election in November. And we have 
overall confidence in the system.
    You know, individual parts of the election system are more 
or less vulnerable. You can never eliminate all 
vulnerabilities, but the overlapping layers of the system are 
what give us confidence, the fact that there is a wide variety 
of machines in use, a wide variety of procedures across 
jurisdictions, many checks and balances, physical controls, and 
the devices are not connected to the Internet.
    So I cannot speak to the security of an individual device. 
What I can speak to is that, overall, we view the security of 
the overall system as robust. We can never relax obviously, and 
that's one reason that we are offering voluntary assistance to 
State and local governments.
    Mr. Hurd. Thank you, gentlemen.
    Now I'd like to recognize the gentleman from California, 
Mr. Lieu, for 5 minutes of questions.
    Mr. Lieu. Thank you, Mr. Chair.
    Earlier this year, Donald Trump asked Russia to hack an 
American citizen. We know from later media reports that Russia 
has hacked the Democratic National Committee, as well as the 
Democratic Congressional Campaign Committee, and other entities 
for the purpose of influencing American elections.
    And my question for you, Dr. Ozment, is what steps is DHS 
taking to try to prevent Russia or other foreign entities from 
influencing the American election this November?
    Mr. Ozment. Thank you. Without speaking as to the source of 
the intrusions into the DNC and DCCC, I do want to talk about 
some of what we're offering to State and local government 
officials.
    First, we're offering them best practices. For example, we 
recently published a document on best practices for securing 
voter registration systems. We're also offering to scan their 
Internet-connected systems. So voter registration systems 
primarily, possibly tabulation for results reporting, and we're 
offering to scan these regularly for any vulnerabilities. And 
we will provide a weekly report on any vulnerabilities we 
detect and recommendations for mitigating them. We call that 
cyber hygiene scanning.
    We're also offering to do more in-depth risk and 
vulnerability assessments. That would require us to send people 
onsite to do a much more detailed assessment of systems. We 
have local field-deployed personnel called cybersecurity 
advisers and protective security advisers. These individuals 
are available to provide assistance and advice to State and 
local governments.
    And then finally, we've offered physical and protective 
security tools, training, and resources. All of those are 
available to State and local government officials. And then, of 
course, more broadly, we have the multistate ISAC, an entity 
that we have funded for well over a decade to help support 
State and local governments in their cybersecurity practices.
    Mr. Lieu. Thank you.
    Commissioner Hicks, thank you for your testimony. My 
understanding, from the main thrust of your testimony, is that 
because we've got 50 States, thousands of different 
jurisdictions, the American elections system is complex, 
diverse, and robust, because it's really hard to hack all of 
that. My view is they don't have to hack 50 States. In a close 
Presidential election, they just need to hack one swing State, 
or maybe one or two, or maybe just a few counties in one swing 
State. So I do sort of challenge your premise that just because 
we've got 50 States, somehow we are robust.
    And my question is, is there a focus on these swing States 
to make sure that in States that potentially are close, that we 
do everything we can to make sure that the integrity of the 
elections are protected?
    Mr. Hicks. Thank you for that question, Congressman. The 
EAC and the rest of the election community is focused on all 
the States, not just the swing States, because we feel that all 
the votes are valuable in that sort of realm. The basic premise 
of this is that if someone goes into a polling place and 
attempts to influence the election, that's still a Federal 
crime, and they should be prosecuted. So we're basically asking 
for people to serve as poll workers so they can be vigilant and 
serve as people who are on the front lines of seeing these 
sorts of things.
    But to answer your question, you would still need a 
tremendous amount of people to go into any polling place to try 
to influence an election that way, even if it could be done, 
and we don't believe that it can be done.
    Mr. Lieu. Thank you. As a recovering computer science 
major, I keep in mind that folks hacked computers well before 
the existence of the Internet, and we've had troubling reports 
of how these voting machines can be hacked quite easily.
    And, Mr. Appel, you, yourself, hacked a voting machine. Are 
you aware of Symantec also hacking voting machines?
    Mr. Appel. Who?
    Mr. Lieu. Symantec Corporation.
    Mr. Appel. No.
    Mr. Lieu. For research purposes.
    Mr. Appel. No, but----
    Mr. Lieu. Okay. Then let me just put this in for the record 
so people understand. So there was a Bloomberg article dated 
September 19 saying, ``States Ask Feds for Cybersecurity Scans 
Following Election Hacking Threats.'' I'm just going to read 
this.
    ``In a recent simulation, Symantec Corporation said its 
workers were able to easily hack into an electronic voting 
machine. It was possible to switch votes as well as change the 
volume of data, said Samir Kapuria, senior vice president and 
general manager of Symantec's cybersecurity group.''
    And, Mr. Chair, if I could enter this into the record.
    Mr. Hurd. Without objection, so moved.
    Mr. Lieu. Can you explain how you hacked the machine and if 
there's any reason why we would want a machine with no paper 
ballots? Wouldn't we always want a backup in case something was 
hacked?
    Mr. Appel. Yes. I'll be happy to explain. The machine that 
I hacked is called the Sequoia AVC Advantage. It's now called 
the Dominion AVC Advantage. It's in use in almost all of New 
Jersey and in all of Louisiana and a few counties of 
Pennsylvania and other States.
    The computer program that counts the votes on this machine 
is in a read-only memory that's mounted in a socket on the 
motherboard. To hack this machine, you have to remove that 
memory chip from its socket and install a memory chip on which 
you've prepared a cheating program. The cheating program that I 
prepared has an extra 100 lines of code basically that when the 
polls are about to close, it goes in there and changes some 
votes stored in the machine. And there is an electronic log of 
all votes cast, so it changes the log too.
    So to install that, the attacker doesn't need to be a 
computer scientist. The attacker just needs to have a bunch of 
copies of this memory chip with the program on it. And for each 
voting machine, unscrew 10 screws to remove the panel that 
covers the motherboard, pry out the ROM chip containing the 
legitimate program, and install the ROM chip containing the 
fraudulent program.
    Other kinds of voting machines store their computer program 
that counts the votes in flash memory, and this can be updated 
under the control of whatever computer program happens to be 
running in the voting machine. These voting machines, typically 
the generation developed in the 1990s and after, can be hacked 
without actually physically changing any hardware in the 
machine just by installing a software upgrade memory card in 
the same slot that one would normally install the ballot 
definition.
    And this particular attack was demonstrated by my colleague 
at Princeton, Professor Felten, in about 2007, working with two 
of his graduate students. But it's not just us at Princeton. 
There are many kinds of voting machines, and the same kinds of 
hacks are applicable to all voting machines and have been 
demonstrated at several other universities, including the 
University of Connecticut, Johns Hopkins, Michigan, and others.
    Mr. Lieu. Thank you.
    Mr. Hicks. Congressman, can I just add a little bit to 
this? One of the things I want to make sure that it's clear and 
when the Help America Vote Act came about, is that one of the 
reasons that the paper trail is not universal is that it 
doesn't allow for people with disabilities to basically be able 
to verify their vote and handle that paper. So someone who has 
a dexterity disability is not able to use that. But there are 
machines that allow for verification of ballots and are able to 
be used by those with disabilities.
    So if Congress decides in the next session to look at 
reforming the Help America Vote Act, I would really encourage 
to make sure that the folks with disabilities are not left 
behind with the paper trail issue.
    Mr. Lieu. Can I just briefly respond? You know, we launched 
a rocket, delivered payload to space station that landed on a 
barge. They've designed voting machines that actually you can 
have both a paper ballot and some sort of electronic input and 
have both. So it's not like it can't be done, and my 
understanding is L.A. County is about to do that. So my hope is 
that we don't have any more machines without paper ballots. 
Thank you.
    Mr. Hurd. Thank you.
    I'd now like to recognize Congresswoman Kelly for her line 
of questions.
    Ms. Kelly. Thank you so much. I mentioned in my opening 
statement about hackers attacking the voter registration 
databases in Illinois and Arizona. So I'd like to take a moment 
to understand what these attacks are and what they are not.
    Dr. Ozment, was the cyber attack on the voting machines or 
was it on voter registration databases?
    Mr. Ozment. Thank you, Representative. The cyber attacks 
that you're referring to in Arizona and Illinois were attacks 
on voter registration systems, and they seem to have been 
intended to just copy the data on those systems, possibly for 
the purposes of selling personal information. So we have not 
seen intrusions intended to in any way impact individuals' 
votes in actual voting.
    Ms. Kelly. Why are these more vulnerable than the actual 
machines?
    Mr. Ozment. Voter registration systems are more commonly 
connected to the Internet, in part to ease that registration 
process, and so because they are connected to the Internet, 
they are obviously more susceptible to cyber intrusions.
    Ms. Kelly. And it seems like all of you in various answers 
are saying that it would be difficult for a hacker to succeed 
in accessing the U.S. election system and rigging the results 
in an undetected way, that you all seem to feel like that. Is 
that correct?
    Mr. Ozment. That's correct. Because of the different layers 
of security in the system, even though individual parts of the 
system may be vulnerable, we overall have confidence in the 
system.
    Ms. Kelly. And what is DHS doing to help States secure 
these databases?
    Mr. Ozment. We recently released a best practices document 
focusing particularly on voter registration systems to help 
States secure those systems. Also, our cyber hygiene 
vulnerability scanning that we offer to States will be 
particularly helpful for those systems because many of them are 
Internet connected. So we have a whole host of resources 
available to State governments that are applicable both to 
their voter registration systems and to other systems, even 
systems outside of the voting process.
    Ms. Kelly. And is it correct there are at least 40 States 
with the network defense device similar to the Einstein censor 
used by Federal agencies?
    Mr. Ozment. The majority of States--I don't know the exact 
number--absolutely take advantage of a service that we offer 
through the MS-ISAC, which provides network protection for 
those States.
    Ms. Kelly. And is it at the same protection level as the 
Federal? Is the State as good as the Federal?
    Mr. Ozment. You know, it's a different capability than the 
Federal system, just suited to the networks that State and 
local governments offer. There's one key difference. One of the 
Federal systems can take advantage of classified information 
that is not currently available through the multistate ISAC for 
State and local governments. We have made that available in a 
different way for State and local governments.
    But what I can say is overall we have made all of those 
protections available to State and local governments through 
one mechanism or another.
    Ms. Kelly. And, Mr. Hicks, what is your agency doing to 
help States secure their election systems?
    Mr. Hicks. If we're talking about voter registration 
systems, one of the things that I would like to include in the 
record is the EAC has a checklist for securing voter 
registration data, and that lists out a number of things, 
basically, from access control to auditability to making sure 
that we document everything and everyone who has access to that 
system. And I would like to make that available for the record.
    Mr. Hurd. Without objection, so moved.
    Ms. Kelly. And, Mr. Norden, can you briefly describe how 
voting machines are vulnerable and how widespread the problem 
is?
    Mr. Norden. Yeah. Well, I would echo the comments that were 
already made about the fact that because voting machines aren't 
on the Internet, that certainly is an important distinction to 
be made between machines that we're voting on on election day 
and things like a registration database, which is generally 
connected to the Internet.
    In terms of vulnerabilities, again I would say my concern 
mostly is about, for voting machines, is mostly about the fact 
that this equipment around the country is getting very old, and 
as the equipment gets older, we are more likely to see 
failures. We see things.
    And, again, I am particularly worried about this in the age 
of social media. We saw this a little bit in 2012, but with 
touch screen machines, there are often, as machines age, more 
calibration problems. In Virginia, there was an instance where 
the glue between the screen and the machine itself was just 
degrading, and as a result, the kind of thing that happens is 
somebody--I'm sure you've seen the videos of this before--
somebody selects one candidate, another candidate shows up. I 
think that's not very good for voter confidence. And when 
that's posted on YouTube, as it inevitably is, the more and 
more that we see of these things, again, especially in the 
context of hearing about hacks to voting systems, that can be a 
very dangerous thing. And that machine has to get taken out of 
service.
    You get long lines. There was a study from researchers at 
Harvard and MIT that estimated between 500,000 and 700,000 
people were not able to vote in 2012 because of long lines. I 
think that's a huge risk to the integrity of our elections.
    Ms. Kelly. This might just be a guess on your part, but 
how--or if anybody else knows--how old are the oldest machines 
that are still being used?
    Mr. Norden. They're probably among the oldest in New 
Jersey. I would say, actually, ironically, I think some of the 
oldest machines probably have less of a need of replacement 
than some of the newer systems that we bought, because systems 
particularly bought just after the Help America Vote Act was 
passed that were designed in the '90s are essentially laptops 
from the 1990s, and those were not built to last much longer 
than 10 or 15 years.
    Ms. Kelly. Dr. Appel, anything to add?
    Mr. Appel. Yeah. I think some of the oldest electronic 
voting machines in use in this country date from the late 
1980s. Some of those machines are still reliable in the sense 
of not breaking down. My concern with the machines is more, you 
know, can they be hackable without a paper trail that could let 
you recover the correct result of the election?
    Mr. Hicks. Congresswoman, one of the things that the EAC is 
doing now is we're working on our next iteration of our 
voluntary voting system guidelines. And so these guidelines 
will be an update since the last ones, the last full ones that 
were done, which were done before the iPhone was invented. So 
we want to make sure that we incorporate the new technologies 
that are here today in looking towards tomorrow. So we're 
asking for anyone to join our public working groups to give 
their input to make sure that the next standards that we do are 
basically the best standards we put out.
    Mr. Kemp. I would just add, I know we've been kind of 
singled out with our voting equipment being fairly old, early 
2000s, but I would just remind the Representatives that this 
isn't equipment that we're using every day like you use your 
phone or your laptop or your desktop. This is equipment that's 
used two or three, maybe four times a year. We have policies 
and procedures in the State where the counties have certain 
ways that they have to care for the equipment, and they have 
held up well. So I think it's just important to realize that as 
well.
    Even though the technology may be old, it doesn't mean it's 
bad, and the equipment is wearing well. We actually do an 
assessment after every election, the Center for Elections at 
Kennesaw State does. We have a less than 1 percent failure rate 
on our elections equipment. So, you know, if that changes, that 
will certainly raise a red flag to us, but right now we have 
not seen that.
    Ms. Kelly. We have made it a point--I'll give him the 
credit--of not just having hearings to have hearings. And we 
always ask how can Congress help make things better. But where 
do you think--and any of you can answer this--where should the 
priority be in investing in our election systems to make sure 
they're secure and the public does have the confidence, and how 
can Congress help?
    Mr. Hicks. I spent 11 years as a staffer here on the hill 
and I know the difficulty that Members face in terms of making 
sure that things are done correctly, but also having a 
financial responsibility to that. I think that my role now at 
the EAC is one to give Congress as best advice as I can to move 
things forward.
    And so, you know, in my own opinion, I'm looking at voting 
machines like a fire truck. Fire trucks are still going to be 
out there. They need to be used. They need to be--you know, if 
there's a fire, they're going to have to be used. But until a 
new fire truck can be purchased, you have to use that old one. 
And so what can you do? And so what we're doing at the EAC is 
making sure that we give the best guidance in terms of managing 
those things. So on our Web site we have 10 things to do on 
managing aging voting equipment.
    And so in the future, I would say that if Congress wants to 
look at this to look at how much will it cost to replace these 
machines if we're going to do that, but also to look at other 
aspects of it. To say, you know, do we want to start talking 
about this third rail of, you know, using our own devices to 
cast ballots and things like that. But also we want to make 
sure that we look at military and overseas voters as well 
because they don't have these same options of using the 
equipment that we have here, and looking at disability groups, 
but also looking at our aging population as well. So there's a 
lot of things, and I would be happy to come up here any time to 
discuss any of those topics.
    Ms. Kelly. Anything?
    Mr. Kemp. Well, I think--that's a really good question, by 
the way, and I think there's a couple of things that come to 
mind for me. I would encourage Congress to let the States 
remain flexible in what systems that they're using. I think 
there's great value in that. I know the National Conference of 
State Legislatures agree with that assessment as well. But I 
would also urge you to work with the National Association of 
Secretaries of State.
    I know Commissioner Hicks and his colleagues have been to 
many of our meetings, winter meetings that we have in D.C., and 
I think I can pretty much 100 percent speak on behalf of the 
organization that we'd love to have any Member of Congress or 
even do maybe a session during that winter meeting where you 
can hear a different perspective, because it is different. I 
mean, one size does not fit all in elections. What we're doing 
in Georgia is going to differ greatly from what, you know, Jim 
Condos may be doing in Vermont, or what's going on in 
California, and we would welcome and encourage that.
    Ms. Kelly. I used to be a State rep, and I know Jesse White 
really well.
    Mr. Hurd. Thank you. And the chair notes the presence of 
our colleague, Congressman Jody Hice, from Georgia. We 
appreciate your interest in this topic and welcome your 
participation today.
    And I ask unanimous consent that Congressman Hice be 
allowed to fully participate in today's hearing.
    Without objection, so ordered.
    And, Mr. Hicks, I know you have a time deadline, but I 
think we should be done by that deadline, but I'd like to now 
recognize Congressman Hice for 5 minutes.
    Mr. Hice. Thank you very much, Chairman. I appreciate you 
letting me be a part of this.
    And, Secretary Kemp, I just want to say hello to you. It's 
always great to have some Georgians up here, and it's an honor 
to have you, sir. Thank you for participating. And all our 
witnesses today, thank you for being here.
    Secretary Kemp, let me just go with you. The broader 
question here, of course, that we are all concerned about and 
well should be is that of voter fraud, regardless of how it 
shows its face. Can you explain some of the steps that Georgia 
has taken in particular to prevent voter fraud across the 
board?
    Mr. Kemp. Well, thank you, Congressman. It's great to see 
you as well as Representative Carter.
    We have really done a lot. I know I've spoken a lot about 
our voting system not being connected to the Internet. We have 
got all kind of policies and procedures about how we tie the 
number of votes on a specific machine that is counted with our 
paper tape inside the machine back to the signed voter 
verification of the voter when they come in the precinct. So I 
want to assure people that there is a way that we can tie that 
down.
    But we've also seen, and it hasn't really been talked a lot 
about here today, but, you know, there's fraud that happens 
with paper ballots as well. We've seen it in many local 
jurisdictions with absentee ballots. We've had elections that 
have been overturned because of things of that nature, people 
manipulating the paper absentee ballot process in Georgia, 
especially in a local election, a municipal election, where, 
you know, literally 5 to 10 votes could sway an election.
    But one of the things that we've done in Georgia, I think, 
besides having really good State laws and State election board 
rules on how the counties should handle the statewide voting 
system and training in that regard to protect the integrity of 
the election, we've also, as Commissioner Hicks said earlier 
today, we've asked for the public's help, not only as poll 
workers or poll watchers, but we've got a stop voter fraud 
hotline and an email that we monitor.
    Unlike some other jurisdictions across the country, we 
actually have a law enforcement division in the Secretary of 
State's office. Any complaint that we get, any complaint, it 
can be something as serious as potential vote buying, to 
something maybe as small as there's a handicap lift that wasn't 
working correctly at a precinct or there's not enough parking 
or there's long lines, we'll respond to every single one of 
those cases or look into those to see if it warrants an 
investigation.
    So we encourage Georgians that may see something improper, 
if they feel like their vote hasn't been cast properly, if 
somebody was manipulating them in a precinct, whatever it is, 
to report that to us, and we strategically put our 
investigators and inspectors around the State during the early 
voting advance period and on election day where we can respond 
very quickly. So we have a lot of ways that we try to stop 
voter fraud.
    But contrary to some people not believing it happens, it 
actually does. And when that does happen, we bring those 
individuals or counties, if they're not following the rules and 
procedures, to the State election board, and we have a due 
process that we go through. And we've actually had, you know, 
candidates that have paid heavy fines and have committed to 
never run for office again because of the actions that we've 
taken. So that's something, you know, and we treat every case 
the same, you know, when it comes to that.
    Mr. Hice. What about specifically when it involves 
electronic voting machines? I'm sure there are glitches from 
time to time. When someone offers a complaint due to a machine, 
what's your process?
    Mr. Hicks. Well, as you can imagine, that's something 
that's high on our radar, so we'll send somebody out. I mean, 
if we have an equipment problem, there's a couple actions we 
can take. We can send an investigator. We have emergency 
preparedness plans where, especially on big elections like 
we'll be having November the 8th, where we've coordinated with 
State Patrol and Department of Public Safety to have a 
helicopter and a trooper at the Kennesaw State election center.
    So let's say we have a server go out, which we had happen 
in a county. You know, if you don't get on that quickly and the 
results don't come in quickly, then the public starts to ask 
the question, why is that happening? So we now have the ability 
to either fly or drive with a law enforcement official, 
equipment. Or we've had times where we've had a failure with 
the voting equipment. We've had to send a technician out there 
to help maybe get a memory card out of there or something of 
that nature.
    So there's a lot of steps that we take to investigate, you 
know, also before the election to prevent those things 
happening, but also to make sure public confidence stays intact 
by responding quickly to those type things.
    Mr. Hice. Thank you, Mr. Chairman. I yield back.
    And, Mr. Secretary, thank you. Always great to see you.
    Mr. Hurd. I'd like to now recognize my friend and the 
Congressman from the great State of Georgia, Buddy Carter, for 
his 5 minutes.
    Mr. Carter. Well, thank you, Mr. Chairman, and thank all of 
you for being here. This is obviously a very important subject 
that all of us are concerned with.
    Secretary Kemp, again, it's good to see you. Thank you for 
being here. Thank you for your work in the State of Georgia. We 
appreciate all of your efforts in making sure that our 
elections are run in a safe and effective manner, and you're 
doing a great job and we appreciate it. I appreciate the 
opportunity to have worked with you in the General Assembly and 
have fond memories of that.
    I wanted you to provide us some insight in your position as 
Secretary of State--and you also, as I understand, serve as co-
chair of the National Association of Secretaries of State's 
Election Committee, and also as a member of the new DHS 
Election Infrastructure Cybersecurity Working Group. 
Cybersecurity is something we talk a lot about up here. I also, 
as the chairman also, he and I both serve on Homeland Security, 
and we are very concerned about cybersecurity.
    Mr. Secretary, can you briefly describe your role as a 
member of the DHS Election Infrastructure Cybersecurity Working 
Group? Can you tell me basically what you all do?
    Mr. Kemp. Well, it's a relatively new task force, if you 
will, that was created by Secretary Johnson and DHS so that we 
can have collaboration between the States and the Department of 
Homeland Security, and I certainly applaud that. I've had some 
people ask me why I would serve on that when I was so critical 
of the critical infrastructure definition, but I do. I feel 
very strongly that that's a designation that should not be put 
on election systems, but I also feel strongly that there are 
ways that we can collaborate as Secretary of State or State 
elections officials with a lot of different branches of the 
Federal Government to make sure that we're prepared, that we're 
informed, and that we can better protect our system.
    So the Working Group right now really has just been a 
series of phone calls to go over what DHS has rolled out for 
States that need or may want to voluntarily take advantage of 
some of the things that have been talked about, the cyber 
hygiene scanning and other things. And right now, from all I 
know, unless we have some sort of other event pop up, that's 
probably about all that's going to happen before the election, 
other than the States knowing that they can reach out to DHS 
directly.
    From the State of Georgia's perspective, we're already 
doing a lot of the things that have been offered, so we don't 
have the need for the assistance. It's not that we're not 
grateful for it being out there, it's just something that, you 
know, thankfully, we have been working on this issue, like you 
were saying, cybersecurity, for 3 years. And I know all of 
State government has as well. And we see that every day, not 
only in the Secretary of State's office, but all across State 
government in the State of Georgia, and we're part of an 
information sharing analysis center as well in Georgia that's 
going through the Technology Authority, GTA.
    Mr. Carter. Okay. Let me shift gears here for just a 
second. It's my understanding, the U.S. Election Assistance 
Commission, it's my understanding that the National Association 
of Secretaries of State has called for the elimination of that 
on several occasions. In fact, just recently, the most recent I 
should say, is probably in July of 2015. As the Secretary of 
State of Georgia, have you had any interactions with the EAC?
    Mr. Kemp. I have. You know, I was one of those, for full 
disclosure, that supported a resolution. I think it was several 
years ago. Mr. Hicks may have a better memory of that than me, 
because I felt like the usefulness of the organization, the 
time had passed. But to answer your question, yes, I have had 
dealings with the EAC. They're part of this working group, and 
I will say they've been very responsive in their role.
    Mr. Carter. So have they improved? I mean, are you now--do 
you now think that they're beneficial?
    Mr. Kemp. Well, I wouldn't want to go that--well, I 
definitely think they're beneficial. I have different thoughts 
about that that maybe in another setting I could spell out a 
little more detailed. But they've certainly been responsive in 
this issue.
    Mr. Carter. So should we eliminate them or should we just 
transfer some of that work to another group?
    Mr. Kemp. I'm of the belief that we can do a lot of that at 
the State level.
    Mr. Carter. Mr. Hicks----
    Mr. Kemp. But I want to say it's been--I've been grateful 
that we have commissioners that have now been appointed to the 
EAC where they can work on certain things that are required at 
this time.
    Mr. Carter. Mr. Hicks.
    Mr. Hicks. I want to thank Secretary Kemp for his support. 
One of the things, when I--one of the reasons I spent 11 years 
up here was I spent 4-1/2 years as a nominee waiting for my 
confirmation.
    Mr. Carter. Four-and-a-half years?
    Mr. Hicks. I'm the longest serving Obama nominee, and I was 
finally confirmed in December of 2014.
    Mr. Carter. Who does the confirmation?
    Mr. Hicks. The Senate Rules Committee. But it was the full 
Senate.
    Mr. Carter. We're doing all we can. I feel your pain. We 
have to deal with them too.
    Mr. Hicks. But overall, the Election Assistance Commission 
sat without commissioners for almost 3 years and then sat 
without a general counsel or an executive director, so a lot of 
that work wasn't getting done. So when my fellow commissioners 
and I were confirmed, we hit the ground running. And so I think 
that, you know, most of the Secretaries of State have changed 
their tune to figure that we are more valuable now.
    But our role is to the States and locals and other 
stakeholders like the voters themselves, and so I think that 
now we are proving that we are valuable and hopefully will 
continue to do that.
    Mr. Carter. Well, great.
    Again, gentlemen, thank you for what you do. This is 
extremely important, and we all recognize that and all 
appreciate your work and your diligence in this.
    Thank you, Mr. Chairman. I yield back.
    Mr. Hurd. The gentleman yields back the balance of his 
time.
    I'd now like to recognize the ranking member, Mr. Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    This summer, there were reports that Russia was attempting 
to compromise our elections by hacking into election systems. 
This is a very grave issue that threatens the foundation of our 
democracy. On Monday, Ranking Member Diane Feinstein in the 
Senate Intelligence Committee and Ranking Member Adam Schiff of 
the House Intelligence Committee issued a joint statement. They 
said, and I quote, ``Based on briefings we have received, we 
have concluded that the Russian intelligence agencies are 
making a serious and concerted effort to influence the United 
States election,'' end of quote. They issued the statement 
after careful consultation with the intelligence community, our 
intelligence community.
    Now, Dr. Ozment, I assume you have no reason to question 
the accuracy of this statement. Is that right?
    Mr. Ozment. Sir, the executive branch has not attributed 
these incidents to any entity, and the FBI is leading an 
ongoing law enforcement investigation of these breaches.
    Mr. Cummings. Here is what I don't understand. For some 
reason, Donald Trump keeps defending Russia against these 
hacking allegations. In fact, in Monday night's debate, he said 
he doesn't know if it was Russia. It could be China. It could 
be a 400-pound person in bed, he said. Frankly, his statements 
seemed ridiculous to me. Not only has Mr. Trump defended 
Russia, he has encouraged Russia to conduct the hacking.
    Dr. Ozment, DHS plays a key role in helping States protect 
their election systems against cyber attacks. Is that right? Is 
that right, sir?
    Mr. Ozment. Sir, we are there to support State and local 
governments in defending their systems. That's right.
    Mr. Cummings. Well, this morning, FBI Director James Comey 
told the House Judiciary Committee, and I quote, ``There's no 
doubt that some bad actors have been poking around,'' end of 
quote.
    Here's my question, without disclosing any classified 
information, have you seen any uptick in probing attacks by 
foreign adversaries over the past 3 months?
    Mr. Ozment. Sir, I don't think we have a concrete answer 
for that question. What I'll tell you is, obviously, you know, 
there are two incidents in Arizona and Illinois that resulted 
in breaches of voter registration systems. And what I'll say 
applies only to voter registration systems and, therefore, does 
not impact the actual casting of a vote.
    As part of our response to that, we and others in the 
Federal Government have shared information with State and local 
governments, essentially Be on the Lookouts, which are called 
cyber indicators. State and local governments are using that to 
more carefully monitor their systems. Any time you more 
carefully monitor a system, you're going to see more bad guys 
poking and prodding at it, because they're always poking and 
prodding. What I can tell you is that I think it's safe to say 
that voter registration systems that are online will always be 
the subject of interest from bad guys, whether for stealing 
personal information by criminals or other nefarious purposes. 
And that's why we think it's important that State and local 
governments constantly focus on the security of those systems, 
and we have published guidelines to help them secure those 
systems.
    Mr. Cummings. On August 30, 2016, I sent a letter with 
ranking members of the Committees on Judiciary, Foreign 
Affairs, and Homeland Security, asking whether the FBI is 
investigating troubling connections between members of the 
Trump inner circle and the Russian interests.
    I ask unanimous consent that this letter be made a part of 
the record, Mr. Chairman.
    Mr. Hurd. Without objection, so ordered.
    Mr. Cummings. Dr. Ozment, earlier this morning, FBI 
Director Comey was asked about this letter before the House 
Judiciary Committee. Comey said that the FBI is trying to 
figure out, quote, ``just what mischief is Russia up to in 
connection with our election.'' He also said he would not 
inform Congress, at least at this stage, about any interviews 
with individuals working for Mr. Trump who were listed in this 
letter, because he does not comment on ongoing investigations.
    I want to ask you specific questions about this, but 
generally, does DHS work with the FBI to investigate illegal 
acting by foreign adversaries?
    Mr. Ozment. So, in July, the President released 
Presidential Policy Directive 41 that laid out the role of DHS 
and the FBI in investigating cyber incidents. And you can think 
about it as a significant cyber incident being the equivalent 
of an arson in the real world. And when you have an arson, you 
want both the firefighters and the cops to show up. In this 
analogy, the FBI are the cops. They're the lead what we call 
threat responders, the lead law enforcement agency. My 
organization are the lead firefighters. So we focus on helping 
the victim and taking information to share with other victims 
and help them--or other potential victims and help them protect 
themselves. So we do collaborate closely with the FBI, but it's 
the FBI in the lead role for ascertaining who is the 
perpetrator and bringing that perpetrator to justice.
    Mr. Cummings. One last question: Again, generally, if you 
come across evidence that anyone in the United States was aware 
of these illegal actions or even collaborated with foreign 
adversaries, would you work with prosecutors and FBI 
investigators?
    Mr. Ozment. If at any time we come across any evidence of a 
crime, unless we are prohibited from sharing that, we would 
immediately share it with law enforcement agencies.
    Mr. Cummings. Chairman, I yield back. Thank you.
    Mr. Hurd. Thank you, Ranking Member.
    And, Mr. Hicks, I want to say thank you for your time and 
contribution to this hearing. I know you have to slip away, and 
if you do, please go ahead.
    Mr. Hicks. I can't leave when my own Congressman just 
showed up. So I don't know if I--I can take the 5 minutes to 
see if he has questions for me.
    Mr. Hurd. Great.
    Well, with that, I would like to recognize my friend from 
the Commonwealth of Virginia, Mr. Connolly, for 5 minutes.
    Mr. Connolly. I know Mr. Hicks is not flying home.
    Mr. Hicks. I'm actually going to Iceland.
    Mr. Connolly. My daughter was just there. She was hiking.
    Thank you, Mr. Chairman.
    And thank you to the panel.
    And good luck, Mr. Hicks. Enjoy Iceland.
    Last month, the Department of Homeland Security Secretary 
Jeh Johnson said, and I quote: ``We should carefully consider 
whether our election system, our election process is critical 
infrastructure, like the financial sector, like the power 
grid.''
    Mr. Ozment, what did Mr. Johnson mean by that?
    Mr. Ozment. So, first, I should note that DHS has not 
formally designated the electoral system as critical 
infrastructure. We are focused right now in the immediate term 
on providing whatever resources and assistance we are able to 
provide to States and local governments and whichever resources 
and assistance they want from us.
    You know, longer term, I think that's a conversation that 
we want to have with State and local governments. Under our 
authorities, there are additional capabilities that we can 
provide to those governments if we designate the system as 
critical infrastructure. That includes additional protections 
we can put on information. If, for example, we wanted to get in 
a conversation with both State and local governments and 
vendors, we could better protect the information that those 
vendors provide to us. We have--we can better prioritize the 
resources that we want to give to them, and it improves our 
ability to, for example, offer clearances to folks involved in 
this process.
    I would like to highlight that if we were to make that 
designation, it does not give us any regulatory powers. All of 
our resources and assistance would still be voluntary, you 
know, and the State and local governments would remain in 
charge of elections.
    Mr. Connolly. So if, however, we did declare it critical 
infrastructure, I think Mr. Appel said there were 12 States 
that still use touchscreen technology. Is that correct?
    Mr. Appel. Some States use touchscreens in some of their 
counties and not others. So I said approximately 10 States, 
based on the preponderance of the use of----
    Mr. Connolly. So if we declare it critical infrastructure, 
we might be able to provide some assistance if those States 
chose to move to the, you know, paper/electronic kind of 
ballot.
    Mr. Ozment. We can offer assistance now, and I think it 
would help us in our ability to offer assistance. But we would 
not, for example, be able to replace their systems. We wouldn't 
be able to offer that type of assistance.
    Mr. Connolly. Mr. Kemp, I want to make sure I understood 
your testimony. I thought I heard you say that elections should 
be governed strictly by States and localities and that it was 
not really the business of the Federal Government. Am I getting 
your testimony correctly?
    Mr. Kemp. Well, it's a constitutional duty of the States to 
run elections.
    Mr. Connolly. Isn't also, however, a concern of the Federal 
Government that Federal elections have some uniformity to them? 
For example, the Voting Rights Act.
    Mr. Kemp. Well, I certainly understand your point, but I 
think the whole argument of critical infrastructure, just like 
Mr. Ozment just said, protecting vendors' information really 
goes against the open process that we have now at the State 
level where, like when we test our voting equipment, it's 
advertised in the local legal organ. You know, the local 
newspaper editor or reporter can come watch that process that 
the local election boards do, and any citizen.
    And I think the idea of federalizing our elections to where 
we have a one-size-fits-all voter registration system or 
mandating that States use a certain voting system or one type 
of voting system creates all kinds of problems and, quite 
honestly, I think would make our system--make the system more 
vulnerable, not less.
    Mr. Connolly. Well, so are you saying that, from your point 
of view, the 50 different State systems plus tens of thousands 
of localities is just fine, and we shouldn't even look at it at 
the Federal level?
    Mr. Kemp. Well, I wouldn't say that you shouldn't look at 
it and everything is just fine. There's certainly jurisdictions 
out there that do better than others. We have that in the State 
of Georgia. But I believe that we're better suited as a State 
to provide solutions for that than the Federal Government is.
    Mr. Connolly. Well, what about the Voting Rights Act? I 
mean, that was an argument used back in the 1950s and 1960s for 
the Federal Government to keep its nose out of State 
jurisdiction. Frankly, if the Federal Government hadn't passed 
the Voting Rights Act, people would have still been 
disenfranchised, including in your home State and mine.
    Mr. Kemp. I would say that the Voting Rights Act is still 
intact.
    Mr. Connolly. Yes, but it's an example of the opposite of 
what you're asserting. It was an example of federalizing 
something to protect the franchise, because the States weren't 
doing it. In fact, States were actively suppressing votes. You 
don't deny that, do you?
    Mr. Kemp. Well, I'm not sure I understand what that has to 
do with the election system.
    Mr. Connolly. Well, I'm dealing with your assertion of the 
principle that we shouldn't federalize any aspect of this. And 
I'm arguing that the Voting Rights Act is a clear exception to 
your principle and that perhaps the Federal Government in 
Federal elections, at least, has an interest that overrides the 
State interest when it comes to protecting, at the cyber level, 
the integrity of the results.
    Mr. Kemp. Well, that's certainly your opinion. Mine 
differs.
    Mr. Connolly. I yield back, Mr. Chairman.
    Mr. Hurd. Thank you, Mr. Connolly.
    I now would like to ask unanimous consent to submit two 
letters for the record: One from the National Association of 
Secretaries of State. It is an open letter from the Nation's 
secretaries of state to Congress talking about how we can work 
together to share the facts about cybersecurity in our 
elections. The second letter is from the Electronic Privacy 
Information Center about this hearing.
    Without objection, so ordered.
    Mr. Hurd. Mr. Hicks, one of the things that you said, one 
of the three points that the EAC is responsible for is 
providing grants. Is there grant money available to help 
upgrade aging equipment?
    Mr. Hicks. Most of that money has already been accounted 
for, so there is no money available to replace voting 
equipment.
    Mr. Hurd. Thank you.
    And, Dr. Ozment, I just want to be clear. This conversation 
about designating voting systems as critical infrastructure, 
that is off the table for this election. Is that correct?
    Mr. Ozment. It's not what we're focused on in the near 
term. We really in the next 3 months--voting has started. You 
know, voting is occurring in a number of jurisdictions across 
the U.S. For the next few months, we're focused on how we can 
help State and local governments.
    Mr. Hurd. And I would like to end with my takeaways from 
this, is that pieces of our voting system are vulnerable, but 
it's really hard to hack our voting systems. There are some 
that need to be upgraded. We should never rest on outdated 
legacy systems and that we should be looking at how we solve 
this problem working together and that there's resources within 
DHS for our States to voluntarily ask for. And this is not 
forcing any particular program on an individual State.
    And what I'd like to do in my remaining 3 minutes, I'd love 
to go down the line and everybody take 30 seconds and give your 
final points. This is an important topic. I appreciate you all 
being here, and this is your last conversation with the 
American people.
    So let's start with you, Mr. Norden, and work our way 
backwards.
    Mr. Norden. Thank you, Chairman Hurd.
    I guess I would emphasize two things. What I said earlier, 
I think, one of the most important things that we can do is 
ensure that there is confidence in the system. I think that the 
issues of access and confidence and integrity of our voting 
system are all interdependent and linked. Too often, access and 
integrity are presented as oppositional.
    I do think that there is a role for Congress after this 
election to start thinking about what investments the Federal 
Government can make to ensure that there is confidence in the 
system, through research grants for innovation and for 
replacing some of the oldest equipment that really is a 
challenge.
    And one last point I want to make is, because so many 
States are leaving it to counties to purchase this equipment, 
we really are starting to see a kind of two-tiered system in 
this country, with counties with less money, less resources--
they're often rural counties--are left without being able to 
invest and replace their equipment. And we're talking, yes, 
about local elections but also Federal elections, of course.
    Mr. Hurd. Thank you, Mr. Norden.
    Mr. Appel, 30 seconds.
    Mr. Appel. After the election, I think it would be a very 
good thing for the Congress to find a way to assist and 
encourage those 10 States that still primarily use paperless 
touchscreen machines to switch to optical scan machines. I 
would say also that there are many safeguards in our American 
elections which we haven't explicitly discussed in this 
hearing, and those have to do with the inherent transparency of 
the canvassing process in many States, in most States, where 
the results are announced in each precinct of how many votes 
each candidate got in the precinct. And the challengers, the 
party challengers, and any interested citizen can see for 
themselves that those numbers add up to what the election 
officials are reporting in the precinct-by-precinct totals. And 
that's a safeguard against hacking of the computers in county 
central that might be adding up those precincts.
    So we should encourage measures that election 
administrators are already taking to make transparent the 
process of reporting the precinct-by-precinct numbers in a way 
that we can see that they add up.
    Mr. Hurd. Excellent. Thank you, sir.
    Secretary Kemp.
    Mr. Connolly. Would the chairman yield for one second?
    Just to Mr. Appel's point, we had an election in Virginia 
for a State attorney general. And because we had a paper trail, 
we were able to see an anomaly in absentee ballots cast, that 
clearly there was an anomaly in one congressional district. And 
sure enough, there was a ballot box that had accidentally been 
put aside because of a malfunction, and the votes had not been 
counted. It actually made the difference in terms of who won; 
it was that dispositive. So what Mr. Appel is saying I think is 
really critical in terms of getting accurate results in our 
elections throughout the country.
    Mr. Appel. I'll just add that the kind of transparency you 
get from that makes it so that you don't have to be a 
cybersecurity expert to understand that anomaly and correct it.
    Mr. Hurd. Secretary Kemp.
    Mr. Kemp. Chairman Hurd, thank you for having me today, 
members of the committee. I appreciate the opportunity to be 
here.
    I think, in my 30 seconds, I would just encourage you to 
continue to collaborate with the secretaries of states, 
Lieutenant Governors, and other election officials back home 
and ask them what they're doing, what they're doing to prepare. 
I would encourage all American citizens to do that as well. I 
think they'll be very pleasantly surprised to see the 
preparations that are going on all across this country to make 
sure we have secure, accessible, and fair elections in Georgia. 
And I certainly would appreciate any more collaboration that we 
can have with this committee or other Members of Congress and 
the National Association of Secretaries of State to work 
together in the future.
    Mr. Hurd. Mr. Hicks.
    Mr. Hicks. Saturday marked the 45 days before the election, 
and on that day ballots were sent out to our men and women 
overseas so that they can start casting their ballots back. 
Early voting is going to start soon for many States. And one of 
the messages and the message that I want to make sure is clear 
today is that our elections are secure.
    We on our Web site and throughout the Nation when we've 
gone around this country have talked about our Be Ready 16 
campaign to talk to States about how they can secure their 
elections, how to make sure that the ballots are being counted 
accurately and so forth. And, you know, come November 8, we 
know that we will have an election and that election will be 
secure.
    Mr. Hurd. Dr. Ozment.
    Mr. Ozment. We must be vigilant, as we must always be in an 
area where there are cyber threats. Particularly, as many 
States upgrade their voting systems over the next 4 years, we 
must build those systems to have more cybersecurity that stops 
not just the attacks of today but the attacks of the future, 
when they'll still be used in 2030 or 2040.
    But overall and right now, we have confidence in the 
integrity of our electoral system. We have no indication that 
adversaries are planning cyber operations against U.S. election 
infrastructure that would change the outcome of this election. 
We believe that the diversity and many different levels of 
checks and balances in our electoral systems are sufficient 
that we should all have confidence in the integrity of the 
system and the election.
    Mr. Hurd. Thank you, Dr. Ozment.
    Now I'd like to recognize Ranking Member Cummings for 5 
minutes.
    Mr. Cummings. Thank you very much.
    Again, I am concerned very much about the cyber situation, 
but I'm also concerned about African Americans and Hispanics 
and so many others who have been blocked from voting. I think 
that I will go to my grave trying to do everything in my power 
to make sure that everybody has an opportunity to vote. My 
foreparents were denied it over and over again, and I'm seeing 
a lot of the same things happening today.
    Mr. Kemp, you are secretary of state for Georgia, which is 
one of the three States that were allowed to modify the Federal 
form to require proof of citizenship in your State, based on 
the unilateral decision of Brian Newby, the EAC Executive 
Director. I understand that you submitted a request for this 
modification. But in addition to that, did you or anyone in 
your office have communications with Mr. Newby or anyone else 
at the EAC relating to this request?
    Mr. Kemp. I have to look back and see if that was the case 
before or after. I know we had written letters asking for this 
issue to be treated like the EAC had treated previous 
instances, where we could simply treat the Federal form the 
same way that we treat the State form in our State.
    Mr. Cummings. Can you please provide this committee with 
the copies of all email or other communications between you or 
anyone in your office and anyone at the EAC about this issue? 
Would you do that for us, please, sir?
    Mr. Kemp. We can do that.
    Mr. Cummings. Thank you.
    Mr. Kemp, what evidence did you submit to the EAC 
demonstrating that the modification you requested was necessary 
for the administration of elections in Georgia?
    Mr. Kemp. Well, we were simply trying to, as I said 
earlier, match the State form with the Federal form.
    Mr. Cummings. Will you provide the committee with all 
documents relating to that issue also?
    Mr. Kemp. We certainly can look into that.
    Mr. Cummings. No, that's not what I asked you. I said, 
would you provide us with the documents, sir?
    Mr. Kemp. Well, I wouldn't be able to answer that question, 
but I can certainly look into that and get back to you.
    Mr. Cummings. I'd like you to provide to the committee any 
and all documents that you and your office have relating to any 
analysis you did regarding the impact on eligible voters that 
your request would have. Did you look into that?
    Keep in mind in North Carolina what they did is they 
systematically figured out when black people vote; they figured 
out how they vote; and then they, with precision--with 
precision--made sure that they did everything in their power to 
stop them from voting.
    And so I just want to make sure that we have the 
documentation. I'm sure whatever you did is proper, but I'd 
just like to know. It would be congressional malpractice on my 
part, as a son of people who could not vote, to sit here and 
have you all here and not address this issue. So I'd just like 
to have the documents. That's all. I'm sure you've got 
justification.
    Mr. Kemp. Well, Representative, it's really a pretty simple 
thing that we were trying to do. We were simply trying to make 
the Federal form have the same questions as the State form.
    But I will tell you, as the State of Georgia, under my 
administration and leadership, we have implemented online voter 
registration where anybody that has a driver's license or a 
State-issued ID card can register to vote 24 hours a day, 7 
days a week. And we've had over 360-some thousand people that 
have used that system.
    Right now, we have a Student Ambassadors Program that we 
started last year with a pilot of 14 high schools around the 
State and 150 kids. It's now ballooned to over 800 students in 
any kind of high school that you can imagine across the State 
of Georgia. We have over 102 high schools where we're actually 
teaching students in the school to register their peers to 
vote.
    So I can assure you if anybody that meets the requirements 
and wants to register to vote in Georgia, they can easily do 
so.
    Mr. Cummings. I'm glad to hear that. I just have two more 
questions. The Court of Appeals for the D.C. Circuit 
temporarily halted and reversed the unilateral action by the 
EAC Executive Director. However, prior to that, do you know how 
many voters in Georgia had tried to register using the Federal 
form and were turned away because they did not provide proof of 
citizenship?
    Mr. Kemp. I wouldn't be able to answer that question.
    Mr. Cummings. And how long will you need to get back to us 
on that? Can you get that information?
    Mr. Kemp. I'll have to check on that and get back to you.
    Mr. Cummings. Mr. Chairman, as I said, I am just concerned. 
When Justice Ginsburg was talking about Texas, I think it was 
in the Shelby case, and she was saying that 600,000 Texans 
would not be able to vote, I mean, if we want to have an 
emergency, that's what the emergency ought to be about. Every 
single person, I don't care whether they're Tea Party, Green 
Party, Democrat, or Republican, I will fight for their right to 
vote.
    And I just want to thank you, Mr. Chairman, for your 
courtesy. And I look forward to your responses, Secretary of 
State Kemp.
    Mr. Kemp. Let me just make one point. While we were asking 
for the form to be changed, we never stopped taking the Federal 
forms.
    Mr. Cummings. But can you understand--and I'm almost 
finished, Mr. Chairman. But can you understand why African 
American people, Hispanics, and others might be upset when 
people are--I'm not saying you--when people are blocking them 
from voting, when they're paying taxes and working hard and 
doing everything they're supposed to do and not be able to 
vote? I mean, can you understand it?
    Mr. Kemp. Well, I can understand it, but I can assure you 
that that's not happening in Georgia. Actually, we've seen 
minority participation increase in our State.
    Mr. Cummings. Thank you.
    Mr. Hurd. I'd like to thank our witnesses for taking the 
time to appear before us today.
    If there's no further business, without objection, the 
subcommittee stands adjourned.
    [Whereupon, at 4:54 p.m., the subcommittee was adjourned.]


                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
